        U.S. Department of Energy
        Office of Inspector General
        Office of Audit Services




Audit Report

Department of Energy's Receipt of
Royalty Oil




DOE/IG-0786                           January 2008
                             Department of Energy
                                 Washington, DC 20585

                                  January 4 , 2008




MEMORANDUM FOR THE SECRETARY

FROM:                      reg y . rledman
                         Inspector General

SUBJECT:                 INFORMATION: Audit Report on the "Department of Energy's
                         Receipt of Royalty Oil"

BACKGROUND

The Department of Energy's Strategic Petroleum Reserve is a critical component of this
Nation's energy security strategy. Established in 1975 in the aftermath of the oil
embargo, the Reserve is one of the primary means of assuring U.S. energy stability and
security in the event of a petroleum production or import disruption.

The Department of Interior operates a Royalty-in-Kind program designed to handle oil
collected from private production platform operators in the Gulf of Mexico as royalties to
the Federal Government. Through a Memorandum of Understanding between the
Department of Energy and the Department of Interior, a portion of the royalty oil has
been used to fill the Reserve. The Department of Interior's Mineral Management Service
(MMS) transfers oil to the Department of Energy at specific oil terminal locations
referred to as "market centers." MMS and the Department use contractors to both deliver
and receive oil at the market centers.

Since 2002, MMS has transferred over 112 million barrels of royalty oil to the
Department, with an approximate value of $4.4 billion. The Department plans to use the
royalty oil to increase the size of the Reserve from 727 million barrels of oil to 1 billion
barrels as authorized by the Energy Policy Act of 2005.

Because of the significant value of royalty oil and the importance of the Reserve to U.S.
energy security, we initiated an audit to evaluate the effectiveness of the Department of
Energy's control system over the receipt of royalty oil.

PSSULTS OF AUDIT

We concluded that the Department had not implemented an effective internal control
system over the receipt of royalty oil at the market centers. Specifically, the Department
had not:

        Resolved discrepancies between scheduled oil deliveries and contractor claimed
        receipts at the market centers;

        Ensured that documentation adequately supported royalty oil receipts; and,

                                49    Printed with sny ink on recycled paper
       Addressed the vulnerabilities associated with contractors acting as both the
       shipping agent for MMS and receiving contractor for the Department.

To illustrate our findings regarding discrepancies, during a four-month period in Fiscal
Year 2005, two Department contractors reported receiving 308,000 barrels of royalty oil
less than the amount that MMS had scheduled for delivery to the market center. Yet,
despite this significant shortfall, the Department took no action to resolve the discrepancy
and to ensure that it had received all of the oil shipped by MMS. Although the
Department was unable to explain the differences, we were eventually able to obtain
documentation from NIMS that identified the causes for 276,000 of the 308,000 barrels
variance. This included a decision by MMS to sell royalty oil rather than ship it to the
Department. However, the remainder of the variance was unresolved.

The supporting documentation for oil transfers covered by these contracts was also
inadequate to support the receipts claimed by the Department of Energy's contractors.
Department contractors maintained spreadsheets without supporting documentation and
made unsupported handwritten changes to the amounts recorded as received from MMS.
In analyzing the receipt oTroyalty oil, we concluded that the Department relied too
heavily on unverified contractor assertions concerning the amount of oil received. For
example, Department officials informed us that they believed that contractor reports of
royalty oil receipts, contained in e-mails, were more accurate than MMS' scheduled
delivery information, which was subject to frequent changes.

While responsible Department representatives agreed that discrepancies between the
schedules and reported oil receipts were an indicator of differences that should be
explained based on their materiality, Department officials stated that a more meaningful
comparison would be of actual delivery reports to actual receiving reports. We found this
argument compelling, however, because the Department had not obtained actual
shipment and receipt documentation, neither we nor the Department could perform such a
comparison. Department officials acknowledged that the available documentation was
not adequate.

Finally, the Department's control system did not recognize the risk posed by the fact that
the same contractor often acted as both the shipping agent for MMS and the receiving
agent Tor the Department. The lack of an arms-length relationship and the absence of
compensating controls increased the risk that errors or unauthorized transactions could go
undetected. Department officials asserted that they were unaware of the extent of intra-
company relationships between Department and MMS contractors.

To its credit, the Department acknowledged that improvements were needed in its
controls over royalty oil receipts and has initiated corrective actions. Specifically, as a
resi~ltof the audit, the Department included in its most recent contract solicitation a
provision ror contractors to submit documentation supporting royalty oil receipts. The
Department also proposed an amendment to the Memorandum of Understanding
requiring it and MMS to provide and reconcile any market center discrepancies.
It is important that the Department have adequate assurance that it has and is receiving all
of the oil shipped by MMS. This is especially true as the Department implements its plan
to use royalty oil to increase oil volume in the Reserve. As a consequence, we made
several recommendations to address weaknesses in the process. The results of our
evaluation were referred to the Department of the Interior's Office of Inspector General
and to WIMS program management. The Deparlment of the Interior's Office of Inspector
General told us that they, as will we, intend to follow-up on agency efforts to work
cooperatively in resolving this matter.

MANAGEMENT REACTION

Management concurred with the recommendations and stated that they reflect control
weaknesses that when corrected will strengthen the Department's management of royalty
oil receipts from MMS. Management stated that variances identified in our report did not
result from the Deparlment receiving less oil than shipped by MMS. Rather,
Management asserted that variances could be attributed to differences between MMS
shipping schedules and actual quantities delivered to the Department.

Actions taken or planned by Management to improve controls over royalty oil receipts
are responsive to our recommendations. These actions when fully implemented will help
to ensure that future variances are fully explained, and will reduce the risk of errors in the
receipt and recording of oil deliveries by the Department and its contractors. Although
Management asserted that variances discussed in this report were due to differences
between MMS schedules and actual deliveries, without a formal reconciliation process,
the Department has no assurance that it is receiving the quantities of oil it is entitled to
under the Royalty-in-Kind program.

Attachment

cc:   Deputy Secretary
      Under Secretary of Energy
      Acting Principal Deputy Assistant Secretary for Fossil Energy, FE-30
      Acting Deputy Assistant Secretary for Petroleum Reserves, FE-40
      Chief of Staff
      Pro-ject Manager, Strategic Petroleum Reserve Project Management Office, FE-44
      Team Leader, Audit Liaison, CF-1.2
      Audit Liaison, Strategic Petroleun~Reserve Project Management Office, FE-445
REPORT ON THE DEPARTMENT OF ENERGY'S RECEIPT OF
ROYALTY OIL

TABLE OF
CONTENTS


Royalty Oil Receipts

Details of Finding ...................................................................................................................... 1

Recommendations and Comments ............................................................................................. 5


Appendices

I . Objective, Scope, and Methodology .................................................................................... 8

2. Other Matters .....................................................................................................................   10

3. Summary Table of Discrepancies ...................................................................................... 1 1

4. Related Audit Reports ........................................................................................................ 12

5. Management Comments .................................................................................................... 13
ROYALTY OIL RECEIPTS


Controls over Royalty   The Department of Energy (Department) had not
Oil Receipts            implemented an effective internal control system over
                        the receipt of royalty oil at the market centers.
                        Specifically, the Department had not resolved
                        discrepancies between scheduled oil deliveries and
                        contractor claimed receipts. The Department also had
                        not ensured that contractor documentation adequately
                        supported the amount of royalty oil received. Finally,
                        high-risk contractor relationships existed that were
                        not identified and effectively managed by the
                        Department.

                        The Department's system of controls for royalty oil
                        receipts was not consistent with Government-wide
                        standards for internal controls designed to safeguard
                        assets and to prevent and detect errors and fraud. The
                        Stalzdurdsfor Internul Control in the Federal
                        Government require Federal managers to, among
                        other things: reconcile transaction information
                        concerning resource transfers and receipts; maintain
                        appropriate transaction documentation; and, identify
                        and manage risks posed by a single entity controlling
                        two or more phases of a transaction.

                                     Resolution of Discrepancies

                        Significant differences existed between the amount of
                        oil that the Minerals Management Service (MMS)
                        scheduled to be shipped to the market center and the
                        amount of oil the Department's contractors reported
                        as receiving. The Department entered into contracts
                        with companies to receive royalty oil based on
                        deliveries scheduled by MMS. We judgmentally
                        selected and reviewed 9 of 18 contracts, covering
                        calendar years 2002 through 2005, to determine
                        whether the Department received the amount of oil
                        scheduled by MMS for delivery at the market center.
                        We used scheduled deliveries for comparison
                        purposes with reported receipts because the
                        Department had not obtained actual delivery data
                        from MMS. These 9 contracts represented 21 4 oil
                        transfer groupings from MMS.




Page 1                                                     Details of Finding
         Our analysis of the nine contracts showed that the
         Department's receiving reports did not equal MMS'
         shipping schedules in 28 percent (60) of the transfer
         groupings analyzed. For example, in the most recent
         contract, we determined that the contractor reported
         receiving approximately 2 10,000 barrels of oil or 3
         percent less than MMS reported as shipped over a 4-
         month period. During this same period, we found that
         a second Department contractor reported receiving
         98,000 barrels of oil, or 3 percent less than the
         scheduled shipments by MMS. Prior to our audit, the
         Department had not reconciled the receiving
         contractors' reported receipts to MMS' scheduled
         shipments to explain reasons for the differences.
         Subsequent to the issuance of the draft report, the
         auditors were able to work with MMS to resolve the
         majority of this variance. Specifically, we were able
         to obtain docunlentation from MMS explaining
         reasons for 276,000 of the 308,000 barrels variance
         between scheduled deliveries and reported receipts,
         including a decision by MMS to sell royalty oil rather
         than ship it to the Department. Nonetheless, a
         variance of approximately 32,000 barrels, valued at
         over $1 million, remained unresolved. Appendix 3
         summarizes the discrepancies between MMS'
         delivery schedules and recorded receipts for the 9
         contracts.

                      Oil Receipt Documentation

         Also, the Department's contractors' documentation
         was not always sufficient to ensure that royalty oil
         receipts were accurately recorded and reported. The
         Department required its contractors to obtain
         supporting documentation for royalty oil receipts such
         as pipeline operators' meter records. We reviewed the
         supporting documentation for oil transfers covered by
         the two previously discussed contracts, where
         scheduled deliveries did not equal receipts, and found
         that the documentation was inadequate to support the
         contractors' claimed amounts. Contractor
         documentation included:

                Spreadsheets without source documentation;




Page 2                                     Details of Finding
                             Unsupported handwritten changes to pipeline
                             operator reports that recorded the amount of
                             oil transferred at the market center; and,

                             Pipeline statements that contained caveats
                             against their use for accounting purposes.

                                     High-Risk Transactions

                      Further, the Department's control system did not
                      address high-risk transactions resulting from
                      potential impairments to contractor independence
                      and implement corresponding increases in controls.
                      Specifically, the Department did not require
                      contractors to disclose corporate relationships at the
                      market center. We determined that contractors acted
                      as both the shipping agent for MMS and receiving
                      contractor for the Department in about 20 percent,
                      ( 1 8 of 93) of the oil transfer contractor relationships
                      reviewed. For example, in one of the most recent
                      contracts, the same contractor was the MMS
                      shipping agent and the Department's receiving
                      contractor in three of the eight transfer relationships.
                      We also identified two instances where the oil
                      platform operator who owed royalty oil to the
                      Government, the MMS shipping agent, and the
                      Department receiving contractor were subsidiaries of
                      the same organization. In these cases, the
                      Department did not increase monitoring and
                      implement compensatory controls over contractors'
                      royalty oil receipts to ensure that potential contractor
                      impairments were controlled.

Control Environment   The Department's control system was not effective
                      because it relied too heavily on unverified contractor
                      assertions concerning the amount of oil received.
                      For example, the Department's position was that
                      contractor reports of royalty oil receipts, contained in
                      e-mails, were more accurate than MMS' scheduled
                      delivery information. However, a senior MMS
                      official stated that, although scheduled deliveries
                      fluctuate, the scheduled deliveries were reliable and
                      that they could be used as a benchmark. The MMS
                      official also stated that differences between the
                      schedule and receipts should be reviewed and
                      resolved. Further, the Department did not require
                      contractors to submit doc~~mentation    for royalty oil


Page 3                                                    Details of Finding
                     receipts nor did they verify that the documentation
                     retained by the contractors was sufficient to support
                     the contractors' assertions.

                     Finally, Department officials were not fully aware of
                     the extent of the relationships among MMS and
                     Department contractors. In our view, these
                     relationships increased the risk that errors would not
                     be detected. Also, these relationships could increase
                     the contractors' ability to influence the transaction
                     for their benefit. Department officials stated that, as
                     a result of our audit, they recognize the increased
                     risk and plan to focus more attention on contractor
                     relationships.

                     During the audit, the Department acknowledged that
                     improvements were needed in its controls over
                     royalty oil receipts. Specifically, as a result of the
                     audit, the Department included in its most recent
                     contract solicitation a provision for contractors to
                     submit documentation supporting royalty oil
                     receipts. The Department also proposed an
                     amendment to the Memorandum of Understanding
                     requiring it and MMS to provide and reconcile any
                     market center discrepancies.

Programmatic Risks   The Department exposed itself to unnecessary risks
                     by not instituting a more robust control environment
                     for this program. In the absence of effective
                     controls, the Department did not have assurance that
                     it received all of the oil shipped by MMS. For
                     example, a discrepancy between scheduled
                     shipments and reported receipts of 32,000 barrels of
                     oil, valued at about one million dollars, remain
                     unresolved.

                     Additionally, improved controls are important given
                     ongoing and planned increases to the volume of oil
                     in the Reserve. Currently, the Department has a new
                     fill initiative that will add approximately 27 million
                     barrels of crude oil to the Reserve.




Page 4                                                  Details of Finding
RECOMMENDATIONS   We recommend the Project Manager, Strategic
                  Petroleum Reserve enhance controls over royalty oil
                  receipts by:

                      1. Requiring Department contractors to submit
                         supporting documentation for royalty oil
                         receipts in future contracts;

                     2. Providing MMS with Department royalty oil
                        receipts and working collaborative1 y with
                        MMS to reconcile actual delivery and
                        receiving reports at the market centers so that
                        each agency knows the actual amounts of oil
                        shipped and delivered;

                     3. Developing a surveillance program
                        commensurate with the level of risk posed by
                        contractor relationships; and,

                     4. Verifying, to the extent practicable, past
                        royalty receipts through supporting
                        documentation and/or reconciliation with
                        MMS.

MANAGEMENT        Management concurred with the recommendations
REACTION          and stated that they reflect control weaknesses that
                  when corrected will strengthen the Department's
                  management of royalty oil receipts from MMS. In
                  response to our report, management stated that they
                  are now obtaining supporting documentation, for
                  royalty oil receipts, from their contractors.
                  Additionally, management stated that they have
                  improved collaborations with MMS on all aspects of
                  the Royalty-in-Kind program, are providing NlMS
                  with the supporting documentation obtained from
                  Department contractors and are actively engaging
                  MMS to assure mutual agreement on the quantities
                  of royalty oil transferred to the Department at the
                  market center. Moreover, management will expand
                  the scope of its annual crude oil accountability audit
                  to include the market center royalty oil transfers,
                  with particular focus on related-party transactions.
                  Finally, management agreed to provide MMS with a
                  record of actual royalty oil receipts received at the
                  market center and request that MMS indicate its
                  agreement or disagreement with the reported
                  amounts.


Page 5                           Recommendations and Comments
           With respect to the Department's role and
           responsibilities and royalty oil variances,
           management wanted to clarify some specific areas.
           Management stated that the report recommendations
           adequately captured the respective responsibilities of
           each organization; however, they felt that this
           distinction was not as clear in other areas of the
           report. Management stated that the Royalty-in-Kind
           program is an MMS program over which the
           Department has no management control or
           responsibility. Management contended the report
           erroneously indicated that the Department is
           responsible for upstream activities such as
           reconciling nomination estimates and market center
           receipts.

           Department management also emphasized that there
           was no indication that the variances between
           shipping schedules and contractor receipts were a
           result of the Department receiving less oil than
           shipped by MMS. Instead, the Department stated
           that variances between shipping schedules and
           contractor reported receipts could be attributed to
           differences between MMS' shipping schedules and
           the actual quantities delivered to the market centers.
           The Department opined that the variances could
           usually be explained by time lags in updating
           shipping schedules and occasional changes by MMS
           in the distribution of royalty oil. In its response to
           our draft report, the Department further stated that
           based on records shared with MMS, accounting
           adjustments made by MMS, and assertions made by
           MMS during the course of this audit; there are strong
           indications that the 308,000 barrel variance
           discussed in this report will be reconciled by MMS
           in favor of the Department reported market center
           receipts. The Department committed to work with
           MMS to bring closure to this issue. Therefore,
           management did not believe that variances discussed
           in this report should be characterized as a
           programmatic impact.

AUDITOR    Management comments are responsive to our
COMMENTS   recommendations and if all recommendations are
           implemented successfully the Department's control
           environment over the Royalty-in-Kind program will
           be enhanced.


Page 6                                               comments
         In response to management's comments on roles and
         responsibilities, the Department and MMS jointly
         developed and operate the Royalty-in-Kind program
         with specific requirements on each side of the
         transaction. We agree that the Department was not
         responsible for control over upstream activities,
         however, as stated in the report the Department has a
         responsibility to verify the market center receipts
         reported by its contractor. Additionally, the
         Stundards for Internal Control in the Federul
         Government require Federal managers to reconcile
         transaction information concerning resource
         transfers and receipts.

         Regarding management's assertion that there were no
         indications that the Department received less oil than
         shipped by MMS, we concluded that unexplained
         variances between scheduled shipment and reported
         royalty oil receipts represented a programmatic risk
         of errors in the receipt and recording of oil by the
         Department and its contractors. Regarding
         management's belief that the 308,000 barrel variance
         would be resolved in the Department's favor, neither
         the Department nor MMS were able to provide
         documentation to reconcile 32,000 barrels of this
         variance. The existence of unexplained variances
         represents a programmatic risk in the receipt and
         recording of oil to the Department until fully
         explained. Further, we identified variances relating
         to earlier shipments that management had not
         reconciled.




Page 7                                            comments
Appendix 1


OBJECTIVE     The objective of this audit was to evaluate the
              effectiveness of the Department of Energy
              (Department's) control system over the receipt of
              royalty oil.


SCOPE         This audit was performed between March and
              October 2007 at the Strategic Petroleum Reserve
              Project Management Office in New Orleans,
              Louisiana, and St. James Terminall Capline Market
              Center in St. James Parish, Louisiana. The scope of
              the audit was limited to Royalty-in-Kind receipts
              from 2002 to 2005.

METHODOLOGY   To accomplish the audit objective, we:

                      Reviewed essential Royalty-in-Kind
                      program documentation including
                      Memorandums of Understanding,
                      solicitations, and contracts;

                      Analyzed Mineral Management Service
                      (MMS) transmissions containing scheduled
                      royalty deliveries between contractors;

                      Selected a judgmental sample of contracts
                      for further review;

                      Performed a reconciliation of scheduled
                      deliveries to contractor reported royalty
                      receipts;

                      Assessed the adequacy of supporting
                      documentation for royalty receipts from two
                      contractors;

                      Analyzed relationships between contractors
                      that delivered royalty oil at the market
                      center and contractors that received royalty
                      oil at the market center;

                      Evaluated accounting entries associated with
                      Royalty-in-Kind exchanges;

                      Obtained and reviewed laws, regulations,
                      policies, and procedures relevant to
                      Department of Energy asset management;

Page 8                     Objective, Scope, and Methodology
Appendix 1 (continued)


                                 Assessed the Department's adherence to
                                 Standards for Internal Control in the
                                 Feder~tlGovernment related to risk
                                 management;

                                 Reviewed the results of prior audits and
                                 reviews;

                                 Held discussions with Office of Fossil
                                 Energy personnel, Strategic Petroleum
                                 Reserve personnel, MMS personnel, and
                                 industry traders; and,

                                 Coordinated with the U.S. Government
                                 Accountability Office and the Department of
                                 Interior Office of Inspector General.

                         We conducted this performance audit in accordance
                         with generally accepted Government auditing
                         standards. Those standards require that we plan and
                         perform the audit to obtain sufficient, appropriate
                         evidence to provide a reasonable basis for our
                         findings and conclusions based on our audit
                         objectives. We believe that the evidence obtained
                         provides a reasonable basis for our findings and
                         conclusions based on our audit objectives. The audit
                         included tests of controls and compliance with laws
                         and regulations related to the Department's Royalty-
                         in-Kind program. Because our review was limited, it
                         would not necessarily have disclosed all internal
                         control deficiencies that may have existed at the time
                         of our audit. Also, we examined the establishment
                         of performance measures in accordance with the
                         Government Performance and Results Act of 1993,
                         as they related to the audit objective. We found that
                         performance measures related to the Strategic
                         Petroleum Reserve fill program had been
                         established. Finally, we did not conduct tests to
                         establish the reliability of computer-processed data
                         because we did not rely on the data to accomplish
                         our audit objective.
                         Management waived an exit conference.




Page 9                                 Objective, Scope, and Methodology
Appendix 2

                                   OTHER MATTERS


While the Department assumed ownership of royalty oil at the market center, it did not
make an accounting entry to recognize royalty oil as an asset upon transfer of custody
from the Minerals Management Service. Rather, the Department recognized the royalty
oil as an asset only after it had been exchanged for other oil appropriate for storage in the
Strategic Petroleum Reserve. Therefore, the transfer of royalty oil from Minerals
Management Service to the Department was not appropriately documented and did not
adhere to Department guidance, which directs that assets be recorded from the time of
acquisition. We informed Department management at the Strategic Petroleum Reserve
Project Management Office of this weakness.




Page 10                                                                      Other Matters
   Appendix 3


                       SUMMARY TABLE OF DISCREPANCIES


The table below shows the differences between the amount of royalty oil that the Minerals
Management Service (MMS) scheduled to be shipped to the market center and the amount of
oil the Department's contractors reported as receiving. The table is for the nine contracts for
the period April 2002 through July 2005. For two of the contracts (Phases IIIa and IIIe), the
Department's contractors reported receiving more oil than scheduled to be shipped by MMS.
For four contracts (Phases Illb, IIId, and IIIg) the Department's contractors reported receiving
less than the scheduled amounts, while the aggregate amount reported as received for the
remaining three contracts was equal to the MMS benchmark.


                                   Summary of Discrepancies
          Phase                     Contractor                         TotaI Barrels *

           I I Ia                  Contractor A                                       395,826.91

           IIIb                    Contractor B                                          -66,344.61

           IIlc                    Contractor C                                                    0

           1 l Id                  Contractor D                                          -14,618.49

                                   Contractor E                                                    0
           Ille
                                   Contractor F                                          43,25 1.86

           lIIf                    Contractor G                                                    0

                                   Contractor H                                      -209,904.1 5
           IIIg
                                    Contractor I                                         -98,090.00



The reported total barrels* are net discrepancy amounts for each contractor. Thus, they
reflect the sum of "overages" and "underages" of multiple shipments. The table includes the
discrepancies discussed in this report, specifically, Contractor H and Contractor I
representing 209,904 barrels and 98,090 barrels of oil, respectively. The Department did not
require contractors to provide supporting documentation for claimed royalty oil receipts or
reconcile the contractors' reported receipts to NIMS' scheduled shipments to explain reasons
for the differences.




   Page 11                                                Surr~maryTable of Discrepancies
Appendix 4


                         RELATED AUDIT REPORTS


     Strutegic Petroleum Reserve: Available Oil Can Provide SignzJicunt BeneJits, but
     Many Factors Should Injluence Future Decisions about Fill, Use, and Expansion,
     (GAO-06-872, August 2006). Industry experts recommended that a number of
     factors be considered when filling and using the Strategic Petroleum Reserve.
     They generally agreed that filling the Reserve by acquiring a steady dollar value
     of oil over time, rather than a steady volume of oil over time, as has occurred in
     recent years, would ensure that more oil will be acquired when prices are low and
     less when prices are high. Experts also suggested allowing oil producers to defer
     delivery of oil to the Reserve at a time when supply and demand are in tight
     balance, with oil producers providing additional oil to the Reserve to pay for the
     delay. Regarding use of the Reserve, experts described several factors to consider
     when making future use decisions, including using the Reserve without delay
     when it is needed to minimize economic damage.

     A udit of Strutegic Petroleum Resenle Royalty-in-Kind Oil Program, (ER-L-00-0 1,
     November 1999). The audit reported that the Strategic Petroleum Reserve
     (Reserve) Project Management Office had implemented the Royalty-in-Kind
     program to restock the Reserve. However, written agreements or understandings
     between the Departments of Energy (Department) and Interior had not been
     finalized. In response to the report, the Departments of Energy and Interior
     created a Memorandum of Understanding to outline the responsibilities of each
     Department.




Page 12                                                       Related Audit Reports
                                                     Department of Energy
                                 Strategic Petroleum Reserve Project Management Office
                                                   900 Commerce East
                                              New Orleans, Louisiana 70123




          M E M O R A N D t l M 'TO:    (.icorgc W. Collard
                                        Assistant Inspector (iciicral fix I'erfi1rnlancc Audits
                                        Ol'licc ol'li~spcctor(iciicral

                                        W illialn C'. ( i i b s o ~ ~.Is..
                                                                       . I'roject Manager,         ',   !,;'I


                                        Strategic I'etrolcum Kcscr\.c                  ,   \\\"
                                                                                           ,

                                                                                      ',       i




           I Ilc Str;~lcgicI'ctrolculn Rcscrvc (SI'K) appreciates the opport~l~lit)
                                                                                  to review atid
          comment O I I this dralt report. 'l'he SI'I< concurs with the k,ur rcco~i~rncr~tlatioris
                                                                                                 prcsciltcd
          ill the drnli report. I'hc Oflicc of Inspcctor General has been \.cry liclptiil in idcntilyiiig
          conlrol \\caki~csscsthat \\hen corrected will strcngthcn the I1cpartlncnt's ~nallagclncntof
          rqxlty oil i.cccipLs Iroin the 11cpartmcnl of Interior (1101). I'hc corrccti\~cactions
          plannctl or t:lkcn arc summarizctl bclo\v:

               l<ccommcntli~tio~i
               ~p       ...... ...
                  - - ---      p~
                                     I : In addition t o the prcviulrsly required monthly suinmarics. the
               SI'IZ is no\\ obt;~iningsupporting documentation (c.g.. pipeline statements. inctcr
               tickets. ctc.) I'ronl its contractors.

               I<ccoir~mcndatioi~   3: l'hc SI'IZ has improvctl its collaboratio~l\vitli 1 ) 0 1 on all
               i~spcctsol'thc IZoyaltg -111-Kind prograin. An amendment to tlic Mc~norl~ntlum           of
               I lntlcrstanding hct\vccn the Department ol'lncrgy (1101:) and 1101 addressing thc
               cxch;u~gcol'inli,r~nationhas been sigrlcd by I)OL; and sent to L)OI. .l'lic SI'IZ is
               provitling 1101 with the supporting tlocu~ncntationobtainctl troin its contractors and
               is actively cilpiigiilg 1101 to assure mutual agrccmcnt on the i l ~ ~ a n ~ i tol'royalty
                                                                                                ics        oil
               tnulsli.rrcd tt) 1)OE at lhc illarkcl ccnlcrs.

               Kccommendation 3: The impro\.cd docuincntation and collaboration addressed in
               coll~lcctio~lwit11 the first t\vo rccolnmcndations \\ill also scrvc to reduce the
               incrcasctl risk associatctl u.ilh rclatctl-pill-ty transactions. .I-he SPR also plans. b\
               March 3 1 . 3008. to expand the scope of its annual crude oil accountnhility autlit to
               i~icludcthe rnarkct center royally oil tralls1i.r~.\sith particular focus oil related-part!;
               transactions.




Page 13                                                                              Management Comments
Appendix 5 (continued)




      (ieorgc W. Collard. Office of Inspector (icncral                                         2



           Recc)mn~endation4: I3y March 3 I , 7-008, thc SPR will provide DO[ with a listing o f
           actual royalty receipts. DO1 will be requested to indicate its agreement or
           disagreement, by June 30,2008. with the quantities reportcd by thc SI'K. I he SPK
           will work with DO1 to resolve any areas of disagreement by September 30, 2008.

      Please iir~dattached additional commentary for your consideration in finalizing the
      subjecl rcport.

      Should you have any questions about this response, plcase contact Michacl McWilliams,
      Assistant I'rojcct Manager I'or Management and Administration. Sf'K.



      cc (wlattachment):
      Acting l'rincipal Deputy Assistant Secretary for Fossil Energy, I:E-30
      Acting Ileputy Assistant Secretary fix Petroleum Rcserves, FF,-40
      I'earn 1,cadcr. Audit 1,iaison. C1:- 1.2
      Audit Idlaison. Strategic Petroleum Reserve, I:E-445




Page 14                                                                Management Comments
Appendix 5 (continued)




                      S'I'RATECIC' PETROL.EUM RESERVE FINAL. COMMENTS
                          DRAFT REPORT O N DEPARTMENT O F ENERGY'S
                                    RECEIPT O F ROYALTY O I L




          'l'hcrc arc two arcas ol'thc rcport that we \voultl like to address. I'hc lirst deals with the
          respective roles and rcsponsihilitics ol'thc 11epartnicnt of Interior (1101)and the
          I)cpartr~lc~ltol' Encrg! (1)OE). I'hc second Socuscs 011the signilicancc ol'varianccs
          hct\vccrl 1101 rlon~inationcsti~natcsand market center receipts.



          'l'hc lioyalty-In-Kintl prograln is a 1101 program over which I1Oli has no management
          control or rcspo~lsibility. Ilpstrcam activities such as production estimates, royaltj.
          csti~ilatcs.no~ninationcsti~nates.ant1 transportation ot' royaltv oil to the market ccrltcrs
          arc within the esclusivc pilrvicw 01' DOI. I lo\vcvcr. I)Ol: and 1101 have joint
          r c s l x ~ ~ s i h i l lor
                                  i t ~ t l ~ c1rans1i.r o f royalty oil ar the ~narketcenters. Specificall>. rhc)
          shoultl i~grcc0 1 1 the custo(l!. transli.~.point mcasurcmcnts. 'l'hc drali report's
          rcco~nmcndatio~~s              have as their proper focus this area in which DOI: and 1)Ol have,ioint
          rcsponsihility since I)Oti can only improve processes over \vhich it has comc control. On
          the other hantl. the tindings ant1 conclusions arc less clear on this division ol'
          rcspo~~sihilily.         inclicatiug that DOE is responsible Sor upstrcaln acti\,iLics such as
          reconciling ~lomi~lation               estinlates and market centcr receipts.

          Royalty Oil Variances

           I'hc tlrali report suggests that variances hcr\+ce~lDO1 nominations and ~narhcrcenter
          translkrs to 1)OI: arc negative indicators t h a ~quantities shipped to 1)01<were not
          received hy 1)OI:. Such variances arc not uncspcctcd. .l'hc time lag irl uptlating
          no~ninatio~l   csti~natcsilntl occ;~>ionalchanges hy l)Ol in the distribution ot' royalty oil arc
          typical reasons li)r \arianccs.

          'l'hc rcport ;~dil~-csscs ;I 308.000-barrel variance occurring tlurirlg the April 2005 to .lulj
          2005 t i ~ n cperiod. I'hcrc is no indication that 1101: received less oil than bvns irltc~ltlcd.
          In l'act. Ihasctl on records shared with 1101 by 1)Ol: in the past. accounting ad.justments
          ~ n a d chy 1)Ol ti^ rllc pcriotl in cl~~cstiorl.
                                                        and assertions 111adchy 1)Ol during thc cotlrsc ol'
          this audit. thcrc arc srrong indications that this variance will be rcconcilctl by 1101 in
          Iivor oSthc 1)Ol:-reported 1narkc1center receipts. 1101: will continue to work \\it11 0 0 1
          to hring closure to this issue. tlrldcr the circu~nstanccs.the 308.000-barrel variance
          sllould not hc charactcri/cd as a program~n;~tic     impact. ahscnt a stronger showing ot'what
          the impact was.




Page 15                                                                               Management Comments
                                                             1G Report No. DOEIIG-0786

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of
its products. We wish to make our reports as responsive as possible to our customers'
requirements, and, therefore, ask that you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to enhance the effectiveness of future
reports. Please include answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding
   this report?

2. What additional information related to findings and recommendations could have
   been included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's
   overall message more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the
   issues discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should
   we have any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector
General at (202) 586-0948, or you may mail it to:

                           Office of Inspector General (IG-1)
                                 Department of Energy
                                Washington, DC 20585

                              ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
                                               and cost
effective as possible. Therefore, this report will be available electronically through the Internet at
                                       the following address:

               U.S. Department of Energy Office of Inspector General Home Page
                                    http://www.ig.doe.gov

  Your comments would be appreciated and can be provided on the Customer Response Fonn
